     DEPARTMENT OF HEALTH & HUMAN SERVICES                         Office of Inspector General

                                                                   Office of Audit Services, Region V
                                                                   233 North Michigan Avenue
                                                                   Suite 1360
                                                                   Chicago, IL 60601
July 12, 2010

Report Number: A-05-09-00019

Vinod Mohan
Vice President and Chief Financial Officer, Consumer Business
Community Insurance Company
1 WellPoint Way
Thousand Oaks, CA 91362

Dear Ms. Mohan:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Institutional Medicare Beneficiaries’ Minimum
Data Set Classification for Community Insurance Company (Contract Number H3655, Plan 13)
for Calendar Year 2008. We will forward a copy of this report to the HHS action official noted
below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-05-09-00019 in all correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services

Enclosure

HHS Action Official:

Timothy B. Hill, Deputy Director
Centers for Drug and Health Plan Choice (CPC)
Centers for Medicare & Medicaid Services
Mail Stop C5-19-16
7500 Security Boulevard
Baltimore, MD 21244-1850
  Department of Health & Human Services
             OFFICE OF

        INSPECTOR GENERAL





REVIEW OF INSTITUTIONAL MEDICARE 

BENEFICIARIES’ MINIMUM DATA SET 

 CLASSIFICATION FOR COMMUNITY

 INSURANCE COMPANY (CONTRACT 

   NUMBER H3655, PLAN 13) FOR 

      CALENDAR YEAR 2008





                        Daniel R. Levinson

                         Inspector General


                            July 2010

                          A-05-09-00019

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                       INTRODUCTION



BACKGROUND

Medicare Program

Under the Medicare Advantage (MA) Program, the Centers for Medicare & Medicaid Services
(CMS) makes monthly capitated payments to Medicare Advantage (MA) organizations for
beneficiaries enrolled in the organizations’ health care plans.

Payments to Medicare Advantage Organizations

For capitated payments to MA organizations, CMS uses a risk adjustment approach with separate
models for long-term institutional beneficiaries and beneficiaries residing in the community.
Separate models were necessary because there are significant cost differences between the
traditional community-based MA beneficiary population and the long-term institutional
beneficiary with the same disease profile. An adjustment for the place of residence improves the
payment accuracy of risk adjustment. Federal regulations (42 CFR § 422.2) define
institutionalized, for the purpose of defining a special needs individual, as an MA eligible
individual who continuously resides or is expected to continuously reside for 90 days or longer
in a long-term care facility such as a skill nursing facility (SNF). A community resident MA
enrollee is a beneficiary who generally resides in the community such as his/her home or in an
institution for less than 90 days.

Skilled Nursing Facility Institutional Reporting

Sections 1819 and 1919 of the Social Security Act (the Act) and implementing regulations (42
CFR § 483.20) provide that SNFs participating in Medicare and Medicaid must assess the
clinical and functional status of residents and submit assessment records to States for inclusion in
the CMS national Minimum Data Set (MDS) Repository.

Once SNFs complete and send assessments to the States, CMS uses this MDS data to identify
resident status. Once beneficiaries are identified as institutionalized, they remain in long-term
institutional status until discharged home for more than 14 days. Depending on the resident
status, CMS uses the appropriate institutionalized or community payment rate. The accuracy and
completeness of the assessment data determines the correct MA payment rate.

Community Insurance Company

Community Insurance Company (Community), an organization located in Mason, Ohio, entered
into contract number H3655 with CMS as a health maintenance organization. Our audit covered
Plan 13 under the contract. In Plan 13, 929 unique Medicare beneficiaries were identified as
having institutional status during the period January 1, 2008, through December 31, 2008.
Community was paid $9,717,731 for the 929 unique Medicare beneficiaries.



                                                 1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether beneficiaries, for which Community received Medicare
capitated payments using the long-term institutional resident’s model, were correctly classified
as institutional.

Scope

We reviewed a sample of 100 institutionalized Medicare beneficiaries in which Community
received Medicare capitated payments totaling $1,397,822 during our audit period of January 1,
2008, through December 31, 2008. We limited our scope to reviewing MDS documentation in
determining whether beneficiaries were correctly classified as institutional and did not review
Medicare beneficiaries’ risk scores used in calculating CMS payments to Community.

We conducted our fieldwork at 81 SNFs located in Ohio from November 2009, through February
2010.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Federal and State regulations and guidelines,

   •	 held discussions with Community officials to obtain an understanding of its policies and
      procedures for institutional reporting,

   •	 held discussions with State of Ohio MDS officials to gain an understanding of MDS
      reporting,

   •	 identified 929 institutionalized Medicare beneficiaries from Community’s H3655 Plan 13
      and selected a random sample of 100 beneficiaries,

   •	 reviewed MDS data provided by CMS for the 100 sampled beneficiaries, and

   •	 visited nursing homes for the sampled beneficiaries and reviewed MDS documentation to
      determine if the beneficiary met Federal criteria to be correctly classified as institutional.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.



                                                 2

                                    RESULTS OF AUDIT


We determined that beneficiaries reviewed were correctly classified as institutional during our
audit period of January 1, 2008, through December 31, 2008. As a result, this report contains no
recommendations.




                                               3

